Certificate of Service
The petitioner hereby certifies that a true copy of the foregoing
document, along with electronic versions on a compact disc, was
served upon the Solicitor General and the Attorney General of the
United States and the Attorney General of the State of Arizona, by
sending copies thereof through the United States Postal Service, by
mail, to those individuals, at their respective addresses, on or before
July 31, 2021.

Henryk S. Borecki

Certificate of Compliance
The petitioner certifies that the sixteen pages of this petition
contain about 2,326 words, according to Version 12 of Nota Bene,
the word processing program used by the petitioner.
The attached appendix has thirty-one pages.

Henryk S. Borecki

15

>

t

**

